3

NO.

u- m

I

|W!
ft

W

G

Supreme Court. U.S.
FILEO

IN THE

JUL 2 3 2021

SUPREME COURT OF THE UNITED STATES | omcEOFthe clerk

PATRICK OKEY, PETITIONER
VS.
COMMONWEALTH OF PENNSYLVANIA, ET AL,-RESPONDENT(S)

ON THE PETITION FOR A WRIT OF CERTIORARI TO THE SUPREME
COURT OF THE UNITED STATES FROM PENNSYLVANIA SUPREME
COURT ORDER

PETITION FOR A WRIT OF CERTIORARI

PATRICK OKEY, PRO-SE
425 SOUTH CAMERON STREET
HARRISBURG, PA 17101
Patrickokey6@gmaiLcorrj
717-680-1931

RECEIVES
JUL 29 202' 1

ssssssss

QUESTION PRESENTED

1. Whether Speedy trial Rule( 600) is protected by due
process of law of the Sixth Amendment; Eighth Amendment
and Fourtheeth Amendment:-section 1, of the United States
Constitution permit Commonwealth of Pennsylvania to rely on
the laches doctrine to bar all forms of equitable relief for
substantive constitutional challenges for violation of Natural
justice.

)i

r
LIST OF PARTIES

Patrick Okey, Petitioner

Patrick Okey{PRO-SE}
425 South Cameron St
Harrisburg, Pa 17101
Email: PatrickOkey6@gmait.com
Direct: 717-680-1931

COMMONWEALTH OF PENNSYLVANIA, ETAL RESPONDENT(S)
Jame E. Zamkotowicz,Esq.
York County Office of District Attorney
45 North George Street
York, PA 17101
Direct: 717-771-9600
FAX:717-771-9738
Email: jezamkotowicz@yorkcountypa.gov
ATTORNEY GENERAL PENNSYLVANIA, RESPONDENT(S)
The Honorable Michael J. Brillhart, Judge
The Honorable Michael E. Bortner, Judge
%The Honorable Maria Musti Cook, President Judge
[see above address]

I

TABLE OF CONTENT

ORDER(S) AND OPINION BELOW
■k N

QUESTION PRESENTED

n

TABLE OF AUTHORITIES

U(

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

IV

STATEMENT OF THE CASE

V

REASONS FOR GRANTING THE WRIT.

VI

CONCLUSION

INDEX TO APPENDICES

APPENDIX A: PENNSYLVANIA SUPREME COURT ORDER(S)
APPENDIX B: SUPERIOR COURT OPINION
APPENDIX C : PRELIMINARY TRANSCRIPT COPY
APPENDIX D : BAIL BOND COPY
APPENDIX E: BAIL HEARING AND ORDER
APPENDIX F : IRREPARABLE INJURY INFLICTED AS A RESULT OF
DEPRIVATION OF CONSTITUTIONAL RIGHTS.

1

TABLE OF AUTHORITIES

Klopfer v. North Carolina, 386 U.S. 213 (1967)
Stack v. Boyle, 342 U.S. 1(1951)........................
Strunk v. United States, 412 U.S. 434 (1973)...

STATUTES AND RULES
28 U.S.C. sec 1257(a)
28 U.S.C. sec 1254(1)
Sixth Amendment
Eighth Amendment
Fourteenth Amendment, section 1
OTHER
Pa .R. P. Speedy trial Rule 600
Pa. C.S.sec 9542
Pa. C.S. sec 9543

Til

JURISDICTION

28 . U.S.C. section 1257(a) and
This Court has jurisdiction Pursuant to
28 U.S.C 1254(1). The Petition is timely filed within 90 days of t e
decision below. The Pennsylvania Supreme Court issued its Order on
May 10th, 2021 and denied Petitioner's allowance of appeal. And on
June 8th, 2021

denied Petitioner's Application for reconsideration.

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED

The Order rendered by the highest Court of a State in which a
decision could be had, may be reviewd by the Supreme Court by Writ
of Certiorari where

the validity of a statute of any state is drawn

in question on the ground of its being repugnant of the
Constitution

of the United States, or where any title, right. Privilege,

or immunity is Specially set up or claimed under the constitution of....
the United States
* Sixth Amendment
•r

* Eighth Amendnment
* Fourteenth Amendment:- section 1

statement

OF THE CACF

1. Facts
hpi
m th,S C3Se are n0t in disPute* Petitioner outline
below the events culminating in the Constitutional challenge and
the
procedural history below.
(A) The Pennsylvania General

Assembly introduced a joint
resolution to permit Article 1,
... ..
section 9 of the Pennsylvania
constitution and the sixth Amendmend of the
United states; Eighth
Amendment; and Fourtheeth Amendment,
This Rule codified the state
and federal constitution Provision"
if the Commonwealth fails to bring
the Case to trial with the
appropriate time frame, 180 days the
defendant can file a motion and ask the Court
to dismiss with
Prejudice, the charges against him:Petitioner, Patrick Okey, file this Petition
for writ of certiorari to
the United States Supreme Court from the Order of the Pennsylvania
supreme Court denying the Allowance of Appeal May 10th,2021
and
Petition for Reconsideration
on June 8th,2021.

On May 2nd, 2008, the Petitioner Criminal

Complaint alleged that

Petitioner was charged with Criminal offenses of

Luring a child into

a motor vehicle and Stalking by Detective Robert Pace of the

York

county City Police Department. The Petitioner was incarcerated at the
York County Prison, then Bail was set at $20,000. On July 31st,
2008, Magistrate District Judge without Prima facie bound the alleged
charges to Common Pleas Court. The Petitioner was arraigned on

V

August 29th,2008. The Petitioner's

case was pending before the

December 2008 Criminal court Term which begings
December 8th,2008. As of November 17th,2008,

on monday,

180 days would have

passed since the date the criminal complaint was filed and taking into
account a Continuance of the Petitioner's preliminary hearing on July
15th,2008, through July 31st,2008, there have been

no other

continuances of this matter that are attributable to the Petitioner. The
Petitioner should therefore be entitled to Bail under Pa.R.Crim.P 600.
The Petitioner respectfully requested the Honorable court to grant his
Motion. Petitioner's motion was granted and Petitioner was never
released from custody. A conviction was obtained by the prosecution
in violation of the United States Constitution of Sixth Amendment;
Eighth Amendment; and fourtheeth Amendment used as a means of
laches doctrine to bar all forms of equitable relief for substantive
Constitutional challenges for violation of natural justice and Jury by
the Presentation of testimony known to be perjured. Such a
contrivance is as inconsistent with the rudimentary demand of justice
as is the obtaining of a like result by intimidation. Petitioner's long

litigation of PCRA /Coram Nobis and

Habeas Corpus relied upon 42

Pa.C.S. sec 9542 for an
action by which persons convicted of Crime
they did not Commit. Which

brought about 42 Pa.C.S.sec 9543. The

Petitioner's actual i
innocence of the offense for which Petitioner
convicted.

V

was

REASONS TO GRANT THE PETITION

(A) TO AVOID ERRONEOUS DEPRIVATION OF JUSTICE AND VIOLATION
NATURAL JUSTICE, THE COURT SHOULD CLARIFY THE "INITIATIONSTANDARD Kjopfer v. North Carolina and Stack v. BnvlP THAT APPLIES
WHEN LAW SPECIFICALLY INVOKED SIXTH AMENDMENT, EIGHTH
AMENDMENT, AND 14TH AMENDMENTr-section 1 OF THE UNITED
STATES CONSTITUTION.
Rule 600 Speedy trial guarantee applies to states in Klopfer v.
North Carolina, 386 U.S. 21311967) th» u.S Supreme
Court rules that
the Sixth Amendment's right to a speedy trial is so fundamental that
it applies to trials in State Courts as well as those in Federal Courts. In
Barker v. Wingo, the U.S. Supreme Court Concludes there is not set
amount of time for a trial to qualkify as "speedy", instead, the Court
rules that a number of factors must be used to decide whether the
Sixth Amendment right was violated. (1) Lenght of the delay, (2)
Reason(s) for the delay, (3) The defendant's request for the right( that
is, did he or she protest during the delay), (4) Whether the delay hurt
the defendant s ability to receive a fair trial. For example, even a short
delay might be unconstitutional if the trial was delayed on purpose
and, as a result, a defendant's opportunity to defend himself or
herself has been harmed( for example, if an important witness dies
during the delay). A longer delay might not be a violation because it
was by accident or due to uncontrollable events (Like a full court

VI

Calendar) andf because, no witness or evidence have, been lost during
the delay. The'Court hearing the speedy trial claim has to look at all
the factors and balance them to reach a fair outcome.
,n Stmn* v- United States. 412 U.S. 434 <19731 the U.$: Supreme
Court rules that if the* Sixth amendment's Speedy trial right is
violated, then the Court must dismiss the indictment against the
* •

,

.

'1 f

defendant or reverse the Conviction. This means that even if a
■

.u

«*

•.

.

’ '•

-•.,**

•.

defendant is guilty of the crime/a violation of speedy right demands
-f

*

t

that he or she be set free.
The Eighth Amendment States," Excessive bail shall not be
required, nor Excessive fine imposed, nor Cruel and unsual Punishment
^

h

'■

' ='■'

J

'

inflicted". Notice the Eighth Amendment protects not only the amount
of punishment one, can receive after being found guilty but also the
*

*

*

*

,.-i

•»

amount of bail that can;be.ordered prior to a person's criminal trial
or guilty plea. "Seriousness of the charge".
The Supreme Court found such logic Unconstitutional under the Eighth
Amendment and Command this*Court, and future ^Courts, to ONLY
Consider evidence-which Specifically relates to a’defendant's actual
risk of failing to appear for a Court in making such^determinations.
They, commented," Unless this right to bail before trial is preserved,
the presumption of. innocence, secured only after centuries of struggle,
would lose its meaning" in other words, not matter how heinous a
crime was, a defendant is, still presumed innocent of it; and entitled

V'

example in this case 180 days) charges must be dismissed and the
defendant released if the period
shall not be required,

expires without trial. * Excessive bail

nor excessive fine, nor Cruel and unsual

punishments inflicted:-SEE EXHIBIT OF

INJURY INFLICTED AS A

RESULT. * All persons born or naturalized

in the United States and
subject to the jurisdiction thereof, are citizens of the United States
and of the State wherein they reside. No State shall make or enforce
any law which shall abridge the previleges or immunities of citizens of
the United States; nor shall any State deprive
liberty, or property, without due

any person of life,

process law; nor deny to any person

within its jurisdiction the equal protection of the

laws.

The Congress shall have power to enforce, by appropriate legislation,
the provisions of this code. The Amendment is enforced Pursuant to
the provisions of title 28 U.S.C. section 1254(1), in violation of the
Constitution or laws or treaties of the United State.
CONCLUSION
The Petition for writ of Certiorari should be granted.
RESPECTFULLY SUBMITTED.
Patrick Okey, PRO-SE
425 South Cameron St
Harrisburg, PA 17101
Date: July 23rd, 2021

